No. _________________

In the Supreme Court of the United States
October Term, 2019

JESUS HERNANDEZ-MEDRANO, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Jesus Hernandez-Medrano, by and through his undersigned attorney, and pursuant to Rule 39.1, Supreme Court Rules, and Title 18, United States
Code, § 3006A(d)(7), respectfully moves this Honorable Court for leave to proceed

in forma pauperis, and for leave to file the attached Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit without prepayment of
fees. Petitioner was represented by appointed counsel under the Criminal Justice
Act of 1964, as amended, in the district court and the court of appeals. Leave to
proceed in forma pauperis was never sought in any other court.

Respectfully submitted.

s/Kristin M. Kimmelman
KRISTIN M. KIMMELMAN
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)

Counsel of Record for Petitioner

DATED: July 27, 2020.

